-  -                    CLOSEOUT FOR 2492110046




--
     This case was brought to the attention of OIG by
       a program officer in the Division of
                               r 24, 1992.
                               , one of the panelists, -c
                                    (the complainant), had alleged
that a proposal to the program contained material plagiarized from
a ~ublishedarticle. The ~ r o ~ o s awas
  A.   ..
            -   -   ~


                            A.    A
                                      l ,-
                                      .   ~   ---
                                              -   ~ . entitled
                                              (the first proposal).
It was submitted by                            (the first subject),
                  - ,                      ,-                       and
                   (the subjects), all of whom are affiliated with




had plagiarized the same material, a paragraph describing a
laboratory procedure, in other manuscripts that the complainant had
received from journals for peer review.       The complainant had
destroyed these manuscripts and therefore could not substantiate
this allegation.
     OIG examined the first proposal and noted that a paragraph
that appears in               was nearly identical to a paragraph
that appeared in the published article. OIG examined the subjects'
other NSF proposals and determined that the same paragraph appeared
in               a proposal submitted by the first subject and
                 at the article was cited in both proposals, but
that neither proposal indicated that the passage in question used
language taken directly from the article.
     OIG wrote to the subjects requesting their comments and
explanations concerning the allegation. In her reply, the first
subject took sole responsibility for including the passage in
question in her proposals;      the replies of her co-PIS also
indicated that she had been responsible for including the passage.
She explained that she had omitted a citation for the passage due
to "an unintentional oversight," She also noted another instance
                                 page 1 of 4                    M92-46
in the first proposal where the same passage appeared without
attribution. The first subject submitted revised proposal pages
for the three instances in which she had copied the passage from
the article without attribution. These revisions retained the
words of the article and did not explicitly state that the words
were being quoted. Instead, the revisions stated that the subject
intended to follow procedures "as described bytqthe authors of the
article.
     OIG determined that an investigation was warranted.   We
notified the first subject's university of the allegation and
agreed to defer our investigation to give the university an
opportunity to undertake and complete its own.
     The university's Research Integrity Committee conducted an
investigation. It interviewed the first subject and several of her
collaborators and it probed the origins of other methodological
descriptions in her proposals. It affirmed the conclusion of OIG1s
inquiry regarding the three instances in which the subject had
copied the paragraph from the article into her own work without
attribution.
     It also found another instance in which the subject had used
a paragraph written by another scientist that described a research
method without indicating that this was a quotation or citing the
source. In this instance, however, it found evidence fhat the
subject had been given prior permission by the author to use this
material in her own writings. The committee concluded that using
material by permission of the author(s) but without proper
citation, though wrong, was not a serious deviation from accepted
practice in the scientific community and hence not misconduct in
science. OIG accepts this conclusion.
     The university's investigating committee concluded that the
subject had also not committed misconduct in science when, without
permission, she copiedmaterial fromthe article into her proposals
and did not appropriately reference it, The committee based its
conclusion on its assessment of the subject's intent. It stated
that the wrongful act of including the passage from the published
article in the subject's proposal without attribution "did not
occur with any intent to appropriate the work, claim it as original
to herself or in any way attempt to diminish the contributions ofu
the authors of the article. The committee based these conclusions
on (1) the subject's "demeanor, sincerity and openness (and the
confidence expressed in her by her colleagues) " and ( 2 ) the fact
that in numerous instances in her proposal she properly cited the
work from which she was found to have copied.        The committee
further argued that the subject could not have intended to deceive,
since she surely would have known that her proposal would be read
by experts in her field who would have detected her deception.
     OIG concluded that the evidence in the investigation report
                           page 2 of 4                      M92-46
indicated that the subject copied the material knowingly. The
investigating committee stated that the subject "obviously knew"
that she was "copying the methodstfin the article, and it offered
no evidence that the subject did not know that she was copying the
description of the methods. The committee also offered evidence
that the subject had a motive for copying the method description
from the article, finding that the subject's "lack of facility and
confidence in English" made her apprehensive about describing in
her own words a method not currently available in her laboratory.
The committee cited this as "in substantial measureffexplaining her
decision to use the exact words from the article. Although the
committee twice asked the subject why she omitted to state that she
was quoting the method description from the article, the subject
did not provide a cogent reply to this question. OIG rejected the
university committee's contention that the subject's deception,
because it was easily detectable, could not have been intended.
     Nonetheless, several factors, no one of which alone would
disqualify an act from being misconduct, mitigate the seriousness
of what the subject did. First, as the investigating committee
noted, the failure to cite the article is an isolated incident in
the context of a proposal in which the article is frequently cited.
Second, as the committee also noted, the subject made clear the
source of her ideas. The only originality of the passage that the
subject copied lay in its original combination of words. Third,
the passage itself was only one paragraph long.        Foufth, the
subject did not have a convenient, ethically appropriate
alternative to what she did. It would have been stylistically odd
for her to quote a standard method description in the body of her
proposal. Had she rewritten the description in her own words,
however, her limited command of English made it possible that, in
doing so, she would have inadvertently conveyed an incorrect
meaning.   Fifth, the subject was an inexperienced investigator
trained in another country.
     OIG asked the Dean whether the university considered the
subject's action, if done knowingly, to be a serious deviation from
accepted practice and hence misconduct in science.        The Dean
replied that, in view of the total set of circumstances surrounding
the action, the university did not view the subject's act as
misconduct. Where the seriousness of a clearly inappropriate act
is in question, OIG gives great weight to the university's
assessment of whether, in its local ethical environment, the act
was considered misconduct.
     The university investigating committee recommended that the
university issue a reprimand to the subject in the form of a letter
from the Dean about appropriate citation and quotation, and the
Dean has sent such a letter.      The chair of the investigating
committee has also spoken to the subject about this matter,
reiterating this same message. OIG concluded that the subject's
university has officially recognized the inappropriateness of what
                           page 3 of 4                      M92-46
the subject did and taken suitable action, while deciding that her
behavior, though inappropriate, did not rise to the level of
misconduct in science.
     This case is closed without a finding of misconduct        in
science, No further action will be taken.
cc: Deputy AIG-0, IG




                           page 4 of 4
